<html>
<title> - IMPROVING PUBLIC SERVICE: A REVIEW OF RECOMMENDATIONS MADE BY THE NATIONAL COMMISSION ON MILITARY, NATIONAL, AND PUBLIC SERVICE</title>
<body><pre>[Senate Hearing 116-268]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-268

                 IMPROVING PUBLIC SERVICE: A REVIEW OF
                  RECOMMENDATIONS MADE BY THE NATIONAL
          COMMISSION ON MILITARY, NATIONAL, AND PUBLIC SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2020

                               __________

                  Available via http://www.govinfo.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-841 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
ROB PORTMAN, Ohio                    KYRSTEN SINEMA, Arizona
MITT ROMNEY, Utah                    THOMAS R. CARPER, Delaware
RICK SCOTT, Florida                  JACKY ROSEN, Nevada
MICHAEL B. ENZI, Wyoming
                     Chris J. White, Staff Director
                     James D. Mann, Senior Counsel
                Eric A. Bursch, Minority Staff Director
              Jackie A. Maffucci, Minority Policy Advisor
         Mallory B. Nersesian, Subcommittee and Document Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Sinema...............................................     2
    Senator Rosen................................................     8
    Senator Carper...............................................    11
    Senator Romney...............................................    14
Prepared statement:
    Senator Lankford.............................................    29
    Senator Sinema...............................................    31

                               WITNESSES
                         Tuesday, June 23, 2020

Hon. Joseph J. Heck, D.O., Chairman, National Commission on 
  Military, National, and Public Service.........................     4
Shawn Skelly, Commissioner, National Commission on Military, 
  National, and Public Service...................................     4

                     Alphabetical List of Witnesses

Heck, Hon. Joseph J., D.O.:
    Testimony....................................................     4
    Joint prepared statement.....................................    32
Skelly, Shawn:
    Testimony....................................................     4
    Joint prepared statement.....................................    32

                                APPENDIX

Statements submitted for the Record:
    American Federation of Government Employees AFL-CIO..........    49
    National Active and Retired Federal Employees Association....    52
    The National Treasury Employees Union........................    71
    Senior Executives Association................................    75
Responses to post-hearing questions for the Record:
    Mr. Heck and Ms. Skelly......................................    77

 
                 IMPROVING PUBLIC SERVICE: A REVIEW OF
                      RECOMMENDATIONS MADE BY THE
     NATIONAL COMMISSION ON MILITARY, NATIONAL, AND PUBLIC SERVICE

                              ----------                              


                         TUESDAY, JUNE 23, 2020

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., via 
video conference, Hon. James Lankford, Chairman of the 
Subcommittee, presiding.
    Present: Senators Lankford, Romney, Scott, Sinema, Carper, 
and Rosen.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Good afternoon. Welcome to today's 
Subcommittee hearing to examine the public service 
recommendations made by the National Commission on Military, 
National, and Public Service. The Commission has made several 
well-thought-out recommendations to reduce those barriers of 
entry through the efficiency of our Federal service, and I 
absolutely do look forward to walking through them in great 
detail today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 29.
---------------------------------------------------------------------------
    The Federal workforce is at a critical point. According to 
data compiled by the Office of Personnel Management (OPM), 
Partnership for Public Service, over 18 percent of the Federal 
workforce is eligible to retire, 45 percent of the Federal 
workforce is over age 50, while only 6 percent is under the age 
of 30. In order to serve the American people efficiently in the 
years ahead, agencies must take decisive steps to plan for the 
future. It begins with improving a very broken hiring process 
in the Federal Government, so agencies can attract highly 
qualified candidates.
    It is universally acknowledged that the Federal hiring 
process takes too long. In 2018, the average hire took 98 days. 
That is uncompetitive with any private company. The best and 
brightest candidates will not wait around for 3\1/2\ months, 
and our strategy cannot be that we hope that they do. Even if 
the government reached the Office of Personnel Management's 
targets of 80 days to hire as a goal, that would still not be 
competitive over private companies.
    There is a problem that it has continued year after year. 
It has improved but only in days. It needs to improve in weeks 
and months in length.
    I have long been troubled by the number of hiring 
authorities that the Federal Government has, how seldom most of 
them are used. The Government Accountability Office (GAO) found 
there are 105 unique hiring authorities, but 20 of them are 
used 91 percent of the time. As the Commission noted, the 
short-term fixes added to the complexity of the Federal hiring 
system rather than actually fixes the Federal hiring system.
    The hiring system is broken, so this Commission was asked 
to be able to make recommendations. They have made 
recommendations to improve veterans' preference, to improve 
hiring, to improve oversight, and I look forward to discussing 
any of those ideas and other things that they have brought to 
mind.
    I want to know how we can improve this system, because 
obviously we need a great Federal workforce. I want us to move 
to discuss solutions and how we can actually resolve things in 
the days ahead.
    Senator Sinema and I have been good partners in this, and 
we look forward to getting a chance to do whatever we can to be 
able to solve this in the days ahead.
    With that I would recognize Senator Sinema for her opening 
statement.

             OPENING STATEMENT OF SENATOR SINEMA\1\

    Senator Sinema. Thank you, Mr. Chairman. In the midst of 
the ongoing coronavirus crisis we can all clearly see the 
direct impact that Federal employees have had in helping our 
nation get through this challenging time. I know that is the 
case in Arizona. Federal employees take care of our veterans, 
coordinate medical supplies for our towns and counties, and 
provide assistance to keep our small businesses afloat. Many 
Federal employees, such as the men and women who work on our 
borders, and our postal employees, have continued their 
essential work throughout this crisis, working every day to 
keep our families safe and connected.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Sinema appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    Last month, I was pleased to join with Chairman Lankford 
and lead this year's Public Service Recognition Week (PSRW) 
resolution that passed the Senate. In April, I participated in 
a virtual chat co-sponsored by the McCain Institute, the 
Commission, and Arizona State, on the next generation of 
service.
    It is important to recognize the impact that Federal 
employees and all public servants have on our Nation. Every 
day, Americans count on Federal employees to deliver important 
services and information to them. These critical contributions 
are why today's hearing is important. The Commission's report 
offers a series of recommendations to make the Federal 
workforce more adaptable and able to provide the services that 
Americans need. Making smart investments in human resources 
(HR) will attract stronger candidates, improve the retention of 
our top employees, and ensure that Americans have a more 
responsive Federal Government.
    Congress should always be looking for practical and common-
sense opportunities to make the Federal Government more 
effective and efficient. That is what Arizona and our nation 
need and deserve.
    I look forward to hearing from our witnesses today on how 
their recommendations will provide a push in that direction to 
help us create a more nimble and customer-focused Federal 
workforce.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you, Senator Sinema. Let me do a 
quick introduction of our two panelists today. The first is the 
Honorable Joseph Heck, which we will walk through everything in 
a moment on that--I will give you some more background on 
that--Chairman of the National Commission on Military, 
National, and Public Service. He served three terms in the U.S. 
House of Representatives from 2011 to 2017, representing the 
Third District of Nevada. During that time he was a member of 
the Armed Services Committee, where he chaired the Subcommittee 
on Military Personnel; Permanent Select Committee on 
Intelligence, where he chaired the Subcommittee on Technical 
and Tactical Intelligence; Committee on Education and the 
Workforce.
    Dr. Heck is a board-certified emergency medicine physician. 
He is a brigadier general in the United States Army Reserves. 
As many folks have said, they do not know whether to call him 
General Heck, the Honorable Representative Heck, Dr. Heck. I 
get the benefit of just calling him Joe, from our time of 
getting the chance to be able to serve together.
    Joe, thanks so much for your service in so many different 
ways to our country, and I look forward to getting a chance to 
be able to pick your brain on what you have found in the days 
ahead.
    Ms. Shawn Skelly is Commissioner for the National 
Commission on Military, National, and Public Service. She 
previously served in the Obama Administration as the Director 
of the Office of the Executive Secretary to the U.S. Department 
of Transportation (USDOT). She also served as Special Assistant 
to the Under Secretary of Defense for Acquisition, Technology, 
and Logistics at the Department of Defense (DOD). Ms. Skelly 
served on active duty in the U.S. Navy for 20 years as a Naval 
Flight officer (NFO), retiring with the rank of commander. So 
we have Army and Navy here, and we will not discuss football 
today, thought I would assume both of you could discuss the 
Army-Navy game. I am quite confident Tom Carper already has a 
preference between the two, for which one we should hear more 
from, Army or Navy, and I will let him voice that in the time 
ahead.
    But let me just say thank you, Commander, thank you, 
General. Thanks for your service. Thanks for your service to be 
able to do this.
    While it is the tradition of this Committee that we do 
swear in witnesses, so I thought if I make you stand we will 
probably lose you off the screen. So for a rare moment I am 
going to have you just raise your right hand and go ahead and 
take this without having to stand.
    Do you swear that the testimony you are going to give 
before this Subcommittee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Dr. Heck. I do.
    Ms. Skelly. I do.
    Senator Lankford. Thank you. Let the record reflect both of 
them answered in the affirmative.
    We are using a timing system which we will be able to 
track, but we are very interested in your testimony. Dr. Heck, 
Representative Heck, General Heck, Joe, you are first up on 
this. If you would give us your testimony initially for about 5 
minutes and then we will move to Commander Skelly.

  TESTIMONY OF THE HONORABLE JOSEPH HECK, D.O.,\1\ CHAIRMAN, 
 NATIONAL COMMISSION ON MILITARY, NATIONAL, AND PUBLIC SERVICE

    Dr. Heck. Right. Thank you, Chairman Lankford, Ranking 
Member Sinema, Members of the Subcommittee, and if I may, a 
point of personal privilege in offering a specific greeting to 
my Senator, U.S. Senator Jacky Rosen. Thank you for the 
opportunity to appear before you today on behalf of the 
National Commission on Military, National, and Public Service 
to discuss our findings and recommendations. As you mentioned, 
I am joined by Commissioner Shawn Skelly.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Dr. Heck and Ms. Skelly appears 
in the Appendix on page 32.
---------------------------------------------------------------------------
    In 2017, Congress charged the Commission with the first-
ever holistic review of the military Selective Service process 
and with identifying ways to increase Americans' participation 
in military, national, and public service.
    In March, we were honored to submit our final report, 
Inspired to Serve, to Congress, to the President, and the 
American people. Inspired to Serve is the culmination of 2\1/2\ 
years of research, public hearings, and conversations with 
Americans from across the country. The Commission visited 22 
States, engaging with hundreds of organizations and thousands 
of Americans.
    In this time of a nationwide crisis, we bring a good-news 
story. America's extraordinary and longstanding spirit of 
service continues to shape the Nation. It is a spirit that we 
must harness to meet critical security and domestic needs, 
invigorate civil society, strengthen our democracy, and create 
a more resilient nation that is better prepared to meet the 
next national emergency.
    Our report includes 164 distinct recommendations to 
strengthen all forms of service, but today we will focus on the 
Commission's public service recommendations. In our 
conversations with Federal agency hiring managers, Federal 
employees, and their professional associations, and individuals 
who have tried to enter Federal service, we have heard a common 
refrain: basic Federal hiring processes need a major overhaul 
to make them competitive with other employers and to ensure 
agencies can hire highly qualified employees.
    In response, we propose a set of transformative reforms, to 
include revising job descriptions, to use a clear, accessible 
language; accepting standard one-page resumes; and improving 
interoperability between USAJobs and popular third-party job 
boards as important first steps.
    We must also revamp the complex system of hiring 
preferences and noncompetitive hiring. This system no longer 
meets the needs of agencies and many applicants. We recommend a 
comprehensive approach to improve veterans' preference that 
would include making it a tiebreaker between equally qualified 
candidates and refocusing the preference on recently discharged 
veterans transitioning to civilian employment. In addition, we 
propose a major expansion of the Veterans Recruitment 
Appointment (VRA), a powerful but underutilized noncompetitive 
hiring authority.
    To bring more skilled, mission-driven employees into public 
service and increase the return on the investment of Federal 
training and support dollars, we recommend extending Non-
Competitive Eligibility (NCE) to all who have completed a term 
of national service or a federally sponsored internship, a 
scholarship, or fellowship program.
    We must do more to recruit students and recent graduates 
into government service. As the Chairman mentioned, with more 
than a third of Federal employees assumed to be eligible to 
retire and a very small number of employees of the Federal 
workforce under the age of 30, now is the time to expand the 
aperture. New hires of student interns fell nearly 90 percent 
in 2018. We recommend putting the Pathways Programs into 
statute and expanding its use, increasing the cap on direct 
hiring authorities for students and recent graduates, and 
setting a statutory governmentwide goal for hiring recent grads 
and paying all Federal interns.
    We also recommend a public service corps, similar to 
Reserve Officers Training Corps (ROTC), in which agencies would 
offer scholarships to university students in exchange for a 4-
year public service commitment at an agency. And we recommend a 
new Federal fellowship and scholarship center, to serve as a 
one-stop shop for all taxpayer-funded developmental fellowship 
and scholarship programs.
    Next we must provide Federal agencies with better tools to 
hire critically skilled workers, such as cyber and health care 
professionals. For example, Congress could create a civilian 
cybersecurity reserve at agencies like the Department of 
Homeland Security (DHS) and the National Security Agency (NSA), 
enabling these agencies to quickly expand their cybersecurity 
workforces during emergencies with skilled, vetted, and cleared 
experts who have prior government experience.
    Additionally, we propose a revamping of the Veterans Health 
Administration's (VHA) personnel system, as the Department 
struggles to fill a roughly 49,000 vacancies, with personnel 
policies that are not competitive with the private sector.
    To meet the needs and desires of a changing demographic, 
namely the millennials and Gen Z'ers, benefits for Federal 
employees, which are currently well suited for career public 
servants, need to change for those who prefer career 
flexibility. Cafeteria plans and more portable benefit packages 
would allow employees flexibility in how to allocate agency 
contributions to supplemental benefits and help attract younger 
workers with critical skills while decreasing the barrier 
between public and private service.
    Finally, policymakers must takes steps to build a modern 
talent management system. Our report outlines several proposals 
that would help the Federal Government realize this vision.
    In closing, we call on the Congress and the President to 
invest in the American people and the security of the Nation by 
taking action. In challenging times, Americans have always 
answered the call to serve. To overcome current and future 
challenges, we must ensure that every American has a clear and 
supported path to serve, and, in so doing, strengthen our 
nation and democracy.
    Thank you for the ability to appear before you in this 
virtual form today, and we look forward to answering your 
questions.
    Senator Lankford. Thank you. Ms. Skelly.
    Ms. Skelly. Thank you, Mr. Chairman. I believe it was our 
agreement that Chairman Heck's statement would satisfy for the 
both of us today.
    Senator Lankford. That would be terrific. Thank you very 
much for that as well.
    I appreciate the both of you being a part of this very 
much. I am going to defer my questions to the very end, to 
allow more time for others to be able to jump in. Let me 
recognize first Senator Sinema.
    Senator Sinema. Thank you so much, Mr. Chairman. I am going 
to direct each of my questions to our entire panel today, so 
whichever witness has the most experience on that specific 
topic could answer.
    First I want to welcome my former colleague and friend, Joe 
Heck. Good to see you and I am glad you are with us today.
    Our shared goal is ensuring the Federal Government can 
deliver timely and responsive services for Americans. To do 
that we need good people in public service and good 
organizational cultures at these agencies.
    Unfortunately, over the last decade, the Federal workforce 
has experienced significant instability--repeated shutdowns, 
hiring and pay freezes, and attack on civil servants. All of 
this makes it very difficult for people to see the value of 
becoming or remaining a Federal employee, which puts the 
delivery of high-quality services to the American public at 
risk.
    Your report includes recommendations to improve agency 
culture, including better workforce planning and training, but 
as we know, legislating a better culture is always going to be 
difficult.
    So my first question is, what can Congress to do help the 
administration strike the right balance in developing a culture 
that prioritizes, recognizes, and shows the value that our 
Federal employees provide?
    Dr. Heck. I will take the first stab at it, and then I will 
offer Ms. Skelly an opportunity to add. You are exactly right, 
Senator Sinema. It was not lost on us, as a commission, that 
when we issued our interim report last January it was in the 
midst of the longest government shutdown in our nation's 
history. A we issued our final report it was during the midst 
of the coronavirus pandemic when Federal Government workers and 
government workers across all levels of public service were 
putting themselves on the line in order to keep our nation 
safe.
    I guess the good news is we have no more reports coming 
out--not that there is a cause-effect relationship--but 
hopefully there will be no more national catastrophes 
surrounding any report that we issue.
    You are right. We cannot legislate culture change. And so 
it starts, as we all know, that leadership begins at the top, 
and it is changing the culture within the organizations that 
continue to denigrate Federal workforce. We all know, as we 
have seen across time, when the Congress wants to balance the 
budget, one of the first places they go is the Federal Employee 
Retirement System (FERS) program, and how can we change the 
retirement program to save a few dollars?
    Some look at Federal Government workers as bureaucrats, 
with a job that they can never lose, sitting behind a desk, 
whose only purpose is to put up obstacles to whatever it is 
that the general public wants.
    I believe that we need to take the onus upon ourselves, as 
elected officials, to embrace and support those who commit 
themselves to public service, in order to provide services to 
the American people. Actually, this was an area that Ms. Skelly 
really concentrated on, and I will turn it over to her for 
further remarks.
    Ms. Skelly. Thank you, Chairman Heck, and thank you for the 
question, Senator. To follow up on what my colleague just 
offered for you, I have to completely agree. It is really, at 
the end of the day, a question of leadership. But what I think 
our tools, our recommendations are--are a set of tools and a 
framework that leadership can make use of in order to turn the 
ship of government in that positive direction long-term, with 
respect to the relationship and the appreciation of the 
American people.
    Not just the personnel aspects, but one of the 
recommendations that we do make with regard to providing an 
authorization and appropriation, very modest ones--we do not 
offer a number but we do say it should be modest--to allow 
agencies to do that public service announcement (PSA) education 
and outreach type messaging that really needs to help move the 
needle in terms of people understanding what their various 
departments do for them. That will help set the conditions for 
people to see themselves as contributing to those missions and 
knowing what to expect from our Federal departments in that 
way.
    But, at the same time, one of the things that we learned in 
our journey across the country, which I have to say was a 
journey of discovery for me and one I am grateful for, to talk 
to so many people about these matters, was that firsthand 
information and experience with the government, as you said, 
Senator, that responsive government, firsthand words go a long 
way and often have a disproportionate impact when there is not 
other messaging out there for people to incorporate in their 
formulation of opinion.
    And that also occurs with how we conduct hiring. As the 
Chairman has said in his opening statement, as you have alluded 
to, we need to do much better with how we hire and staff our 
Federal Government. That also impacts the reputation of the 
Federal Government.
    I do not think we can offer anything that, in and of 
itself, is a switch to flip. I believe that some of our 
recommendations are undoubtedly tools to help achieve the 
effects that you would like to see.
    Senator Sinema. Thank you so much. I appreciate it. I am 
going to move on to hiring authorities. I have a couple of 
questions regarding your recommendations for expanded use of 
noncompetitive eligibility and direct hiring authority. So 
first, what are the mistakes that agencies are most often 
making when using noncompetitive eligibility and direct hiring 
authority?
    Ms. Skelly. That is an excellent question, Senator. Thank 
you. I do not know if we called out specific competitive hiring 
problems, but we do know the results of the competitive hiring 
process, in that it is only responsible for 20 to 25 percent of 
hires and approximately 50 percent of those hiring attempts--of 
all competitive hiring attempts; excuse me--result in the final 
list being turned back by the hiring authority within a 
department. So it is not only ineffective, it is also highly 
inefficient, leading to the use of noncompetitive means and/or 
term hiring to get people in to do jobs.
    I do not think we looked especially closely. We know that 
there are things that are not competitive with the private 
sector, in how people are evaluated. I think that could be 
considered things to be improved within our governmental 
noncompetitive--excuse me, competitive hiring process, such as 
we use keyword, we use self-evaluation, to a degree, the 
private sector just does not do. I think I am the greatest at 
anything if you give me the chance. However, that does not help 
a person who wants to hire me that needs to evaluate my skills.
    We know that USA Hire is a tool that could be more widely 
applied and made available throughout the government. At the 
same time, we do have explicit and successful examples of 
experts being in a cooperative roll with their human capital 
professionals, such as in the digital services that exist now 
at the DHS, in their cyber talent management system, in there. 
If we can take those principles and practices and make them 
more widely available and routine across the government, we 
could probably improve the competitive hiring process.
    Senator Sinema. Thank you. Thank you, Mr. Chairman.
    Senator Lankford. Thank you, Senator Sinema. Let me give 
the order of questioning coming up. Next will be Senator Rosen, 
then after that will be Senator Carper, Senator Romney, then 
Senator Scott.
    So I want to recognize Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you, Senator Lankford and Senator 
Sinema, for putting this together. I want to thank both of the 
witnesses for being here today. I especially want to thank my 
fellow Nevadan, Congressman Dr. Joe Heck, for your service. I 
was honored to serve the third congressional district just like 
you. It is a wonderful district in our home State, and I am 
thankful for your service on this area today too.
    I am going to direct my questions to both of you, and you 
can decide which one, or both of you, the best way to answer.
    Of course, we are talking about the Federal cyber 
workforce, and I was really pleased to see this report focus so 
much on developing the Federal Government's cybersecurity 
workforce, both military and civilian. One of our first 
hearings in this Committee last year was on the GAO's high risk 
report, which made it clear that investing in cybersecurity 
personnel is critical for us as a matter of national security.
    So your report recommends expanding junior ROTC (JROTC) 
programs as one way to grow the number of individuals entering 
military service. I could not agree more. I think it is a great 
way to expose young people, so, of course, they have lots of 
opportunities. In Nevada, as Dr. Heck knows, we have programs 
at 35 high schools, with over 3,000 student members. And just 
for that reason, I introduced the Junior ROTC Cyber Training 
Act last year. It is a bipartisan bill with Senator Blackburn, 
Ranking Member Peters, and Senator Scott on it, and now that 
has become even part of a more expansive bill. It's a 
bipartisan bill called the Providing Resources and Organization 
to Maximize Opportunities for Training and Education in 
science, technology, engineering, and mathematics (STEM) Act of 
2020 (PROMOTES) Act. This bill creates a program to prepare 
junior ROTC students for careers in computer science and 
cybersecurity and other STEM fields.
    So for both of the commissioners, could you give us an 
overview of your recommendations for creating those pipelines, 
to develop those Federal cyber workforce personnel, 
specifically how we can use the junior ROTC program with bills 
and programs like I have introduced, and any other suggestions 
you might have, please.
    Dr. Heck. I will take the first stab at it. So certainly I 
think the most overarching recommendation is the creation of a 
civilian cybersecurity reserve force, specifically at agencies 
that have high demand for talented cybersecurity professionals, 
primarily being DHS and National Security Agency. And here we 
talk about looking at former cybersecurity professionals within 
the Federal Government who have left, who are willing to be 
part of a reserve force to come back when needed, in times of 
crisis.
    So here we know that they know the Federal Government, they 
have been vetted, they have been trained, and they have the 
appropriate clearance to be able to work in these agencies.
    Another area to look at is the reskilling of Federal 
employees. We have many talented individuals in the Federal 
workforce who are looking to transition to other forms of 
employment but stay within the Federal Government, and there 
should be opportunities for them to be able to be reskilled in 
the cybersecurity, the STEM area.
    And last, we would recommend that we authorize that all 
agencies are able to use the DHS cyber talent management 
system, which allows more flexibility in being able to bring on 
cyber professionals. Certainly as you mentioned, Senator, the 
emphasis on STEM skills in the K-12 education program, and 
using JROTC as an opportunity to introduce individuals to 
potential service in military, although JROTC is intended as 
more of a civics leadership program than a recruitment tool, it 
is one way to increase high school students' awareness of 
opportunities within the Federal Government writ large, and 
certainly within the STEM fields.
    I will offer Commissioner Skelly an opportunity to follow 
up.
    Ms. Skelly. Thank you, Chairman Heck. Senator, what I would 
add to my colleague's response so far is that two of our 
recommendations with regard to public service pipelines and 
next generation entrance into the civil service writ large are 
public service academies, through grants to institutes of 
higher education, as well as a public service corps, I believed 
was mentioned in Chairman Heck's opening statement, with regard 
to using the ROTC model for individual scholarships with a 
resulting commitment to public service after graduation.
    I believe it is immediately available to get some of those 
folks targeted and tailored into cyber skills in that way, so 
that you are growing people from that high school level all the 
way through. Especially where many individuals are truly 
passionate about their skills and their desire to work in 
certain fields, that could be a powerful tool for one discrete 
method of assuring a flow of young, next generation talent by 
getting them with scholarships and academy-like programs.
    Senator Rosen. I would like to actually build on that, 
because I think that there might be another way to engage 
individuals in a cybercorps, if you will. Someone who might be 
ineligible to serve in the military or some of our other 
programs because of health reasons or other kinds of physical 
disabilities, but of course, they can sit at a computer and do 
a lot of work.
    I think that we might have to think a little bit outside 
the box and pull in some of those folks to do that. It could be 
a great enhancement to what we have.
    The next thing, I have a little bit of time left, I just 
want to talk a little bit about disaster relief national 
service, because, of course, every State has its issues. In 
Nevada we have the wildfires, unfortunately we have had a few 
earthquakes lately, but other parts of the country have other 
issues as well.
    Your report contained a number of interesting 
recommendations for increasing participation in the AmeriCorps 
program. I also serve on the Health Committee, and we have 
jurisdiction over AmeriCorps. I look forward to reviewing your 
proposals on that.
    But earlier this month I joined Senator Coons' Pandemic 
Response and Opportunity Through National Service Act, that is 
going to increase members, increase their stipends and 
education benefits. So how do you think AmeriCorps, that 
expansion, would fit in with your recommendations for what we 
would call a skilled, mobile disaster relief service corps 
during pandemics or other disasters, like I said, wildfires, 
hurricanes, or floods?
    Dr. Heck. Thank you for that question, Senator Rosen, and 
that is a big portion of actually what is contained in the 
national service recommendations of our report. It is the 
growth of national service positions over the course of 10 
years, what we call Vision 2031, getting to 2031, that year, 
that we have a million new entrants into national service 
programs on an annual basis. And we picked 2031 because it will 
be the 70th anniversary of President Kennedy's inaugural speech 
in which he asked not what your country can do for you but what 
you can do for your country.
    And in keeping with Senator Coons' bill and looking at 
utilizing this expansion in that bill to help with contact 
tracing and pandemic response is certainly something that we 
could see, and would wholly support within the recommendations 
that we have under the national service section of Inspired to 
Serve.
    Senator Rosen. Thank you. I think I have about 20 seconds 
left, if you would like to add something.
    Ms. Skelly. Senator, what I would add is the type of 
programs that you have described, and Chairman Heck just spoke 
about, where that connects to public service is with the 
noncompetitive eligibility award after a full term of national 
service. If those people are doing service in a cyber-type role 
of some sort, that means they had to be screened, get into that 
program, they are evaluated over the course of that program, 
and if they complete it, with that noncompetitive eligibility, 
they will probably get an education grant as a result of their 
service, they then would become prime targets for--candidates 
for public service in that way, and will have been exposed to 
using their talents for the public good.
    So we think that becomes a doubling effect of not just what 
they did in national service but their availability to public 
service afterwards.
    Senator Rosen. Thank you so much. I appreciate both of your 
service and look forward to working on some of these ideas in 
the report. Thank you.
    Senator Lankford. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Our thanks to you and 
Senator Sinema today, and we welcome General Heck and we 
welcome Commander Skelly. Do I understand that you are a 
retired naval flight officer?
    Ms. Skelly. Yes, sir.
    Senator Carper. What kind of aircraft did you serve on?
    Ms. Skelly. Sir, the S-3 Viking, the Mighty War Hoover. May 
it rest in peace.
    Senator Carper. There you go. What ships were you on?
    Ms. Skelly. I am sorry, sir?
    Senator Carper. Did you serve on several ships?
    Ms. Skelly. Yes, sir. I did my deployments on Kitty Hawk 
and Carl Vinson.
    Senator Carper. Thank you. How did you get your commission?
    Ms. Skelly. I was a 4-year Navy ROTC scholarship.
    Senator Carper. Where?
    Ms. Skelly. The University of South Carolina, sir.
    Senator Carper. Very good. I was Navy ROTC at Ohio State 
and I came very close to going to South Carolina. So we could 
have been contemporaries there. Well, maybe not.
    General Heck, I am glad we have Army here, and we have the 
Navy here, and I would like to say we are on the same team, and 
this is a mission about which we need a lot of teamwork. We 
appreciate the service that you provided in uniform and 
certainly in this regard to this undertaking.
    When I was in the Navy I was a P-3 Naval Flight officer, 
and I just loved it. I think back on the people who have had 
some success in my life and I always say that my sister and I 
picked the right parents, a coal mining town in West Virginia. 
Not much money, hard work, good values. I have always 
surrounded myself with people smarter than me, including in the 
Navy in a 13 person crew, tried to find the best of personnel, 
the best officers that I could find to serve. At every step of 
my life, When I say that I always try to explain myself people 
smarter than me, and my wife says it is not hard to find them. 
But that is a story for another day.
    I want to talk a little bit about best practices. I just 
want to share with my colleagues and with you, some of what we 
are doing. Dover Air Force Base, the first time I ever stepped 
foot in Delaware, was traveling with the Air Force across the 
country, hitching rides with the Air Force and the Navy, trying 
to get from Corpus Christi, Texas, to Baltimore. We landed at 
Dover Air Force Base and it always felt like a welcome 
introduction. That was many years ago.
    Five years later I stepped down from my active duty to take 
a reserve commission. But my Transition Assistance Program 
(TAP), when I stepped down from active duty, was about a 5-
minute chat with my commanding officers as I prepared to head 
out. They thanked me for my service and that was pretty much 
it.
    I visited Dover Air Force Base a year or two ago to meet 
with departing, separating Air Force personnel, officers and 
enlisted. They spent a whole week together, and it was really 
impressive, impressive for them. It included Veterans 
Administration (VA) benefits, the GI Bill, employment services 
opportunities to work and to serve in the Federal Government. I 
must say that I was really impressed. Compared to what I 
experienced it was night and day.
    I do not know if that is representative of the Transitions 
Assistance Program transition system in other commands, plus 
the Navy and Air Force. One of the things we do, and I do not 
know if this is particularly in Delaware, every year, right 
around February, close to the actual Academy Awards ceremony, I 
host Academy Night at a community college in Dover, Delaware. 
And we invite hundreds of young people. They are usually in 
high school but also in middle school, and the parents to come. 
We invite the Army, Navy, and Air Force to be there for the 
service academies, Coast Guard Academies. All of the ROTCs are 
there. The National Guard is there. And Civil Air Patrol is 
there. But it is an opportunity for us to do breakout sessions 
and welcomes, and just give everyone, the young men and women 
the opportunity to be exposed to the military, the service 
opportunity, ROTCs, the academies. You name it National Guard. 
In meeting with the National Guard we have the opportunity to 
provide a stipend, tuition assistance to be in the Guard and 
going to college at the same time.
    The other thing I would mention, in terms of best practice, 
one of my colleagues, maybe it was Senator Rosen mentioned, 
Junior ROTC. One of the things, when I was governor, we started 
adopting in charter schools, charter public schools, and we 
only have three counties in my State [inaudible] charter public 
schools, high schools, that are affiliated with the military, 
the northern part of the State, Delaware Military Academy is 
affiliated with the Navy. Every day, 5 days a week, the 
students there male and female--wear their Navy uniforms to 
school. And in the central part of the State, near Dover, just 
north of Dover, have First State Military Academy, which is 
affiliated with the Marine Corps. And we are working to 
establish a third in our third county, Southern Delaware, a 
charter high school that is affiliated with the Army. The one 
that is the oldest, Delaware Military Academy, in the northern 
part of the State was recently selected as a Blue Ribbon 
School, one of the finest high schools of the high schools in 
America. And not everybody who goes to Delaware Military 
Academy or First State Military Academy ends up going to the 
military. A lot of them do. And with that I would put out there 
that military academies are one way to recruit people for the 
opportunity to serve in the military, and encourage them to do 
that.
    I do have a [inaudible] that I would like to mention as 
well, and one of the things that surprised me with the work you 
all have done was the relatively few student interns that we 
have in the Federal Government. I think, if I am not mistaken, 
specifically in 2014, the government hired over 35,000 student 
interns, compared to [inaudible] like 2018, 4,000. That is 
pretty amazing--35,000 student interns hired by the government 
in 2014, and that number was at 4,000 in 2018.
    For us, we are not playing much baseball and unfortunately, 
at least not yet. We have a farm club in Wilmington, Delaware 
affiliated with the Kansas City Royals. I described the intern 
programs we have in our offices in Dover and in Wilmington and 
Georgetown, Delaware, and in D.C., I describe it as our farm 
system. That is the way we find good talent, we can find good 
talent. They have some idea of what we are looking for, what we 
do, see if it would be something they would be interested in. I 
mean, we hired all the former interns and it usually works out 
well for us, and it works out well for them.
    But my question to you is----
    Senator Romney. Time is up, Tom.
    Senator Carper. OK. If those numbers are correct, I would 
turn this around.
    Dr. Heck. So those numbers are correct, Senator Carper, and 
quickly, some of our recommendations go directly to answer that 
question, which is why we recommend offering a period of 
noncompetitive eligibility to all Federal student interns who 
complete an internship. Part of the problem is that they get 
caught up in the same hiring process as everybody else who is 
having a hard time navigating USAJobs, and going through the 
competitive hiring process.
    And so if we offered them NCE as an opportunity to keep 
them in the Federal Government, we think that that is one way 
that we can help boost those numbers. And I will ask 
Commissioner Skelly if she has any other recommendations.
    Ms. Skelly. Thank you, Chairman Heck. Senator, one thing I 
would add to that is one of our specific recommendations is to 
establish within OPM a Federal Fellowship and Scholarship 
Center to oversee the implementation of all those programs and 
monitor their effectiveness, not just overall, with regard to 
the numbers that you referenced, but within the individual 
agencies. How are they converting those people? We need to be 
doing exit interviews and developing metrics as to the 
effectiveness of those programs with the individuals who pass 
through them. If they meet the standard to get in, and they 
complete it, they should probably be worth hiring in there, and 
we need to figure out what happens in between that.
    Thank you, sir.
    Senator Carper. Mr. Chairman, thank you for letting me run 
over. I have taped over the area where it has the clock, and I 
cannot see it. Well, not really.
    Senator Lankford. Yes.
    Senator Carper. Thanks so much, everybody. Great to see 
you.
    Senator Lankford. Thank you. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you, Mr. Chairman, and Ranking Member 
Sinema. I appreciate the chance to learn a bit about our 
process. This is a topic with which I do not have great 
familiarity, at least with regards to the government recruiting 
and hiring process, and I am learning as I have been listening 
to you.
    It is good to see Joe Heck, an old friend from the campaign 
trail, who helped me, and I tried to help him. I do not know 
whether my help was of any effectiveness but his certainly was 
and I appreciate that long-term friendship. And Commander 
Skelly, good to meet you at least in this remote way.
    I am interested in understanding your sense of how well we 
are doing in our various agencies. My perspective, as someone 
outside of the government realm for most of my career, is that 
the Army, the Navy, the Air Force, our armed services 
generally, have a very effective recruiting effort, everything 
from the ROTC programs that have been discussed as well as 
recruitment centers, advertising on various public service 
announcements, service academies. I mean, a very effective 
effort to recruit the best and brightest to come into our 
military.
    But I see almost no presence from our other Federal 
agencies. Could you give me a sense of how effective the 
various agencies are outside of our military in recruiting some 
of the very best and brightest students from the best 
institutions of higher learning that we have, and from other 
places?
    Dr. Heck. That is a great question, Senator, and likewise 
good to see you again as well. So, without singling out any 
particular agency, as an enterprise, the Federal Government, as 
a whole, is not doing very well in any of those areas that you 
just outlined. Part of it is, as you mentioned, awareness, 
right? Somebody cannot be what they do not know. So if you do 
not know of opportunities of employment and jobs, careers, 
professions within the Federal Government, you are not even 
going to pursue them.
    Part of it is logistics. If anybody on the Committee has 
ever tried to navigate USAJobs you would quickly become 
disenfranchised with the process by which you try to enter 
Federal hire, especially when you talk to millennials and Gen 
Z'ers. Once you are past five or six mouse clicks, you start to 
lose interest, and it takes hundreds of mouse clicks to 
navigate USAJobs. You have to put in a long-winded resume, 
which again is not what the standard is in the private sector, 
where everybody is using one-page, LinkedIn type resumes to 
search for jobs.
    So we are out of step with what the up-and-coming, best and 
brightest are used to doing when they are seeking outside 
employment. As the Chairman mentioned in his opening comments, 
up to 4 months waiting to even hear back if your application is 
made it into the queue. We heard from individuals that were 2 
years out from putting their application into USAJobs, that 
still had not heard whether or not their application was even 
accepted. Then we heard from individuals that 18 months after 
they put in the application they were called back for an 
interview, after they had already gone on to find another job.
    So we are not doing well at all, and that is why, of all 
the 164 discrete recommendations that we make in our report, 
the single largest group is in public service and how to fix 
Federal hiring problems that we face.
    Commissioner Skelly.
    Ms. Skelly. Thank you, Chairman Heck, and thank you, 
Senator Romney, for the question. I will refer back to Chairman 
Lankford's opening statement as well with regard to out of over 
100--I think 105 discrete hiring authorities, only 20 of them 
result in 91 percent of the hires. So there are hiring 
authorities that are effective, and are out there, and as 
Chairman Heck mentioned, it is an enterprise-wide problem. We 
have effective solutions in places. Some of them work in small 
places and they work for subsections of agencies or departments 
that are out there. They need to be more widely understood, 
applied, and monitored from within a place like OPM.
    Also, with regard to your question, Senator Romney, with 
regard to the effectiveness of military recruitment, it is also 
very expensive recruitment. It does get high-quality people. It 
takes a lot of effort to identify those people over the course 
of years and months, the public and the age cohort.
    We met in Denver in a high school in a section of town 
where folks were not especially of high economic status, and 
spoke with students of all high school grades, and we asked 
them what their expectations were and their knowledge was of 
Federal Government, any kind of public career--State, local, 
Federal Government, military service, and national service. 
They said the ones they knew were the military. We said, 
``Why?'' ``Well, that person stands outside our lunchroom once 
a month.'' They never see any input from the Federal Government 
as to what is out there for them, or their State government, 
for that matter.
    So the thing that is in their imagination is military 
service, and they do consider it, to whatever degree. But we 
are not getting that opportunity. As Chairman Heck said 
earlier, you cannot be what you do not see or understand that 
is out there, and I think that is the largest challenge that we 
have is setting those conditions early with people who are then 
more propensed to receive and understand the opportunities in 
Federal service.
    Senator Romney. Thank you very much. That is very helpful. 
My own perspective, I used to be in charge of hiring, 
recruiting for a substantial consulting firm, and I note that 
we recognized that our success as a firm was a function of the 
quality of people we were able to hire. And so a very 
substantial portion of our budget and of our personnel, even at 
the highest level, was devoted to the recruitment of top 
talent. Hopefully we can develop that type of approach in the 
agencies of our government, not just in the military. I know 
their recruiting process is expensive, but I think it is a 
smart way to go.
    With that, Mr. Chairman, I will turn the clock back to you. 
Thank you for the chance to ask those questions and to hear 
from people so knowledgeable and capable.
    Senator Lankford. Senator Romney, thank you very much. OK, 
let me do the lightning round here because I am going to have a 
bunch of questions that I want to try to run through on this. 
Let me go to one of the most controversial portions of your 
recommendation, and that is dealing with veterans' preference. 
You made some pretty extensive recommendations on veterans' 
preference, both of you being veterans in this process. I know 
you interviewed a lot of veterans in this. I know you also 
talked to a lot of Chief Human Capital Officers (CHCOs) and 
people in HR, in government. This has come before this 
Committee numerous times, the issue of veterans' preference, 
and some of the challenges around it to try to make it work 
well.
    So you made several specific recommendations on this, which 
I appreciate very much on it. I want to be able to drill down 
on some of those.
    Let me begin with the most basic, that some people watching 
this may not know. Do all veterans get veterans' preference?
    Dr. Heck. No.
    Senator Lankford. I think that is a big shift in this, that 
a lot of people do not know already that many veterans do not 
get veterans' preference. Were you able to determine how many 
veterans do not get access to veterans' preference, that is, 
they did not have a service disability or were not in certain 
military overseas campaigns?
    Dr. Heck. No. Unfortunately, we are unable to pull that 
data, as hard as we tried, from OPM.
    Senator Lankford. OK. It is a significant number, though, 
that we know out there.
    So your recommendation was to be able to change veterans' 
preference to a tiebreaker and also to give 2 years on it, that 
you could use it for up to 10 years on a time limit, but your 
first two is really get it. So walk me through briefly that, 
and I want to ask you some specific questions why those 
numbers.
    Dr. Heck. Yes, great. Thanks, Senator. I note your lead-in 
was that it is a controversial recommendation. Changing 
veterans' preference has been deemed to be controversial in the 
past. Certainly the last major attempt was when the late 
Senator John McCain tried to make a change, which did not go 
far.
    So our approach was you cannot nibble around the edges. You 
have got to make comprehensive, holistic changes as a package, 
right? So this is really not trying to change one piece, but 
coming in and redesigning veterans' preference so that it is 
more in tune with the younger veteran leaving service and being 
used to help that veteran transition to the Federal workforce.
    So as you all probably know a veteran who comes in and 
tries to utilize his veterans' preference, or her veterans' 
preference, even if judged as minimally qualified can float to 
the top of the most highly qualified list and be hired over 
other better-qualified candidates.
    Now why is that a problem? One is that you are probably 
putting a veteran into a job for which they are not qualified--
they are only getting it based on the preference--so they 
cannot perform. They become disenfranchised as a Federal 
Government employee and decide to leave Federal service. Or you 
have a supervisor who has an employee that cannot do the job 
that they were required to take, and they then say, ``You know 
what? This is no working. We have to go find some other type of 
hiring authority to get around this list.'' And so you get the 
direct hire authorities, right, and that is how you get to 105 
different hiring authorities when you are trying to circumvent 
one that is already there. Or third, they send the list back 
without taking anybody off the list, which then just further 
delays their ability to hire the best and brightest.
    When veterans' preference was first envisioned it was meant 
to be a tiebreaker between two similarly qualified individuals, 
that the veteran should get the leg up into the position. So we 
say return it to what it was envisioned, the tiebreaker between 
two similarly situated and qualified individuals.
    We then take it to say you can only use it for the first 10 
years post separation, and then we give you one chance to reuse 
it within the first 2 years. So you come in and take a job. It 
may not be the right job for you, right, but we do not want you 
to have exhausted your veterans' preference on a bad choice. So 
if, within the first 2 years, which is when most people will 
recognize that they are in a job that is not meant for them, 
you can get to use it again to move to another position within 
the Federal workforce.
    What we have found is that many individuals, once they get 
in, who have used veterans' preference, continue to use it over 
and over again through their 20-and 30-year career, to move to 
other positions within the Federal workforce, which really is 
not the purpose behind the veterans' preference.
    The other piece which I think is just as important is an 
expansion of the Veterans' Recruitment Appointment. The issue 
here right now is that you only get 3 years to use VRA post 
separation. If a veteran is going to take advantage of their 
very generous GI Bill and go for a 4-year college degree, they 
have lost the opportunity to use VRA by the time they graduate. 
So we say expand VRA out for 10 years as well, so that 
individuals have the opportunity to fully utilize their GI 
Bill, get a degree, get a certificate, get whatever education 
they need, because that will make them a better-qualified 
Federal employee and not take away from them a benefit to which 
they are entitled.
    Now we have talked to most of the Veterans Service 
Organization (VSOs) about this, and as we have explained it, 
most of them have said, ``What you are offering makes perfect 
sense.'' So we would hope that this time around it is not as 
controversial as it has been in the past.
    Senator Lankford. Good. So let me ask you, the 10-year time 
period. I have heard some of the veterans' groups have come 
back and said, ``You are a veteran for life. Why can't you be a 
veteran for life in this program as well?'' Why 10 years rather 
than a lifetime?
    Dr. Heck. For the veterans' preference, or the----
    Senator Lankford. Yes. For the veterans' preference.
    Dr. Heck. For veterans' preference. Because again, we feel, 
as we talked to numerous veterans that have been 10 or 15 years 
post service and those just separated, as we traveled the 
country, the goal is to provide an opportunity for younger 
veterans that are recently separated to get their first entre 
into the Federal Government, and that they should be the ones 
that are able to utilize their veterans' preference to get that 
job.
    If you have already utilized your veterans' preference and 
you are coming in, you should not, in our opinion, have the 
opportunity to use it again to bounce around the Federal 
service. And the question is if you have been out for 10 years 
and you have tried it on the private sector and now you decide 
that you want to come into the Federal sector, it does not 
coincide with what we believe it should be used for, which is 
trying to get that newly separated veteran into the Federal 
Government as quickly as possible.
    Senator Lankford. OK. Commissioner Skelly, do you want to 
add anything to that?
    Ms. Skelly. No, sir. I do not. Chairman Heck has covered it 
completely.
    Senator Lankford. OK. Thank you. This is a very interesting 
proposal. There has been a lot of conversation about veterans' 
preference, trying to be able to make sure that we continue to 
honor our veterans and to be able to give them every 
opportunity to be able to come into the Federal workforce. 
There is a very high percentage of veterans across the Federal 
workforce, and we are very grateful for their engagement and 
their continued public service. But it has been a challenge to 
try to be able to deal with what you appropriately called 
floating in the process for someone who may be minimally 
qualified ends up rising to the top as best qualified and skips 
over some other folks that may be better qualified. So we are 
not trying to block someone from it but they may be just in the 
wrong position. As has been noted, want to be on the bus, just 
a different seat on the bus, and to be able to figure out what 
is the best place to be able to put them in leadership in the 
different agencies. So we appreciate that very much.
    Let me move to Senator Sinema for a second round of 
questions.
    Senator Sinema. Thank you. Mr. Chairman.
    Senator Lankford. Yes.
    Senator Sinema. Sorry about that. I had trouble hearing you 
for a second. I do have more questions, and thank you for 
giving me an opportunity to do a second round.
    I wanted to go back to some of the questions I was asking 
before about hiring authorities. So one of the concerns 
regarding the use of direct and noncompetitive hiring 
authorities is that it undermines our nation's longstanding 
commitment to merit-based hiring. So I would like to know what 
your counter argument is to that concern.
    Ms. Skelly. Thank you, Senator. We have near-term 
consequences at risk with regard to the performance of the 
Federal Government in staying staff, as has been multiple 
statements thus far in this hearing, I believe in the 
Chairman's opening remarks, with regard to the top-end age of 
the Federal workforce, the underrepresentation in the lowest-
age cohort below 30. We need people in the workforce. We need 
to be growing the next generation talent and acquiring it.
    So we have to do some things now while fixing the overall 
Federal talent management system, and our Commission makes 
recommendations on that, with regard to asking several 
organizations to take on projects to make recommendations for 
that, of course. But in the near term, near to midterm over the 
next several years, we have to effectively hire people.
    With regard to competitive hiring, we believe that there 
are some outdated practices embedded in the system that need to 
be changed, when it comes to the use of keywords and self-
assessments, and not involving expert hiring managers alongside 
the human capital professionals as soon as possible in a 
cooperative manner as has been demonstrated elsewhere and 
currently used in very small examples within the Federal 
workforce when it comes to cyber talent. Those things need to 
be undertaken as soon as possible in the near term, and 
incorporated in a long-term plan in that way.
    I think we are looking at exigencies, if I could, Senator, 
with regard to maintaining the operation while setting it up 
for future success.
    Dr. Heck. If I may follow up, Senator, look, what we know 
is that the merit-based system is now being used for the 
minority of hires within the Federal workforce. And so the 
Commission has proposed targeted expansions of noncompetitive 
eligibility for individuals who have already succeeded in 
competitive selection processes and demonstrated capabilities 
relative to our public service, right. So just completing 
Federal fellowships, scholarships, internships, or national 
service programs.
    Regarding the direct hire authority, the Commission has 
recommended targeted limited expansions for students and recent 
grads to kickstart the workforce pipeline that Commissioner 
Skelly had referred to, because we have immediate short-term 
needs that we need to fulfill as we work toward the better 
human talent management program that we have also referenced, 
to help continue hiring into the out years.
    And last, we seek to modify the existing rules that direct 
hire authority has granted in case of a severe shortage of 
highly qualified candidates.
    But most importantly, I think, the Commission has proposed 
many ways to improve the competitive hiring process in order to 
reduce the need for the workarounds like direct hire authority. 
So this is kind of a short-term expansion to meet critical, 
quick needs, as we then hopefully adopt the recommendations to 
make a better human talent management program.
    Senator Sinema. Thank you. I want to go back to, building 
off of the Chairman's comments and questions regarding 
veterans' preference. Your report recommends modernizing the 
veterans' preference through changes to the application 
eligibility criteria. The Arizona veterans community supports 
the idea that the preference is meant to identify qualified 
veterans for Federal positions. They are concerned that the 
ongoing challenges with preference revolves around a lack of 
understanding on how to apply the preference, and, of course, I 
share those concerns.
    So what did you learn about how the current preference 
policy is applied and whether challenges in application 
contributes to any of these challenges?
    Dr. Heck. Yes, that is a great point, Senator, and I think 
it also ties into what Senator Carper had talked about 
regarding the transition assistance program that you go through 
as you are leaving the service. Those programs need to have a 
more robust segment that talks about the full set of benefits 
that a separating veteran is entitled to, not just focus on the 
GI Bill but talk about things like veterans' preference hiring, 
about the Veterans Recruitment Appointment and how it works. 
Because that is where we find, in talking to, again, veterans 
as well as service members that are currently going through the 
transition that these areas are barely mentioned or glossed 
over, and, therefore, they do not know that this benefit is 
available to them.
    Senator Sinema. I appreciate that. Thank you. Commissioner 
Skelly, did you have a response as well, or should I move on to 
the next question?
    Ms. Skelly. I think we have covered it from our end, 
Senator.
    Senator Sinema. Thank you. I would like to ask, in the time 
that I have remaining, a little bit about VA hiring. The 
Department of Veterans Affairs has experienced problems filling 
its open positions for health care professionals, and the 
Commission recognized this challenge and recommended 
streamlining the hiring process by implementing a single 
personnel system for all health care providers and support 
staff at the VA. Stakeholders have expressed concern regarding 
moving away from the competitive service system of Title 5.
    So with that in mind, can you expand on the challenges and 
benefits of this recommendation for the VA?
    Ms. Skelly. Thank you, Senator. I think one of the 
challenges, and I believe Chairman Heck made mention of it in 
his opening remarks with regard to the sheer number of open 
positions in the Veterans Administration with regard to health 
positions, they are not competitive, when it comes to 
compensation, when it comes to elements of licensure and 
portability across the United States. It is not an attractive 
position for too many people who can fill those needs.
    We feel that addressing Veterans Health Administration's 
challenges under Title 38 to streamline things down so that 
folks are not confused, and that the administration itself has 
the ability to apply one set of authorities across all of their 
health care-related employment needs, whether it be the 
providers, whether it be the support staff of all types in that 
way. They are not competitive.
    I apologize for beating on that drum as we have throughout 
the hearings thus far, but it is just too unwieldy compared to 
other places that they could be employed, and with regard to 
other places in the Federal Government itself.
    Senator Sinema. Thank you. With that, Mr. Chairman, my time 
is nearly expired so I will yield back. Thank you.
    Senator Lankford. Senator Sinema, thank you. Senator 
Carper, do you have questions for round two?
    [No response.]
    I am going to take that as a no.
    Let me bounce through some questions because I do have 
several more questions still to go.
    You both mentioned, at different points, direct hire, and 
the problems that are around in so many different areas and so 
agencies pursue direct hire. You are not trying to abolish 
direct hire. You did make some recommendations on direct hire. 
When do you find that needed and who makes the decision on when 
it is needed, based on the Commission's recommendations?
    Ms. Skelly. Thank you, Mr. Chairman. We believe that it is 
the responsibility of leadership, and I think that comports 
with some of the recommendations we have made with regard to 
the human capital function and the talent management within 
human capital itself, empowering the Chief Human Capital 
Officers Council (CHCOC) that already exists, in conjunction 
with OPM, getting them more involved with setting the standards 
for their workforce, and then making individual leaders at all 
Federal departments, from the appointed and confirmed leaders 
to the senior career civil servant leaders to be evaluated on 
their performance with regard to their workforces, so that they 
are directly involved in what tools are used for what problems 
with the direct aid of their human capital talent managers 
themselves.
    Senator Lankford. Let me ask again. You are recommending 
that the agencies and the CHCOs for that agency make the 
decision and have the empowerment to be able to decide if they 
need direct hire authority on something, on a certain top area.
    Ms. Skelly. In conjunction with the overall agency 
leadership or a subcomponent of those agencies. Those need to 
be the types of regular leadership management decisions that go 
on and are not just below the surface and left to those hiring 
professionals alone.
    Senator Lankford. OK. That is helpful.
    Moving from temporary to permanent, there are several 
things that you all also placed there on that transition, 
recommendations that you would have on temp-to-perm type 
transitions?
    Ms. Skelly. Senator, with regard to the conversation we 
previously had with Senator Sinema, I believe, there is an 
expediency required in a lot of hiring in the Federal 
Government today, and we think that adjusting the number of 
term appointments and short-term hires should be used to get 
people in to do the work that needs to be done while 
adjustments are made to the longer-term processes.
    The conversion of those people is something. Any time that 
the Federal Government--this is akin to our reserve 
recommendation, cyber reserve recommendations, our 
noncompetitive eligibility recommendations--any time someone is 
within the Federal Government's oversight and observation and 
we have to see them as a talent and as a work producer, we 
should be loathe to lose them if we do not have to, and 
conversion of people that we employ should be another metric.
    Senator Lankford. Right. So the challenge becomes that some 
would say someone was hired temporarily, whatever task that 
that was, and then they get transitioned over to being 
permanent, they did not go through the competitive process like 
everyone else. How do you respond to them?
    Ms. Skelly. Senator, I apologize. I do not believe we have 
a specific recommendation with conversion of term to full term, 
but I think that can be a powerful tool if it is put in there. 
Whether or not someone would be in a public service job long 
enough to convert, or to receive noncompetitive eligibility, 
that might be a bridge too far. But giving someone entrance 
into the competitive process, with some mention of their prior 
performance, could useful to the government writ large.
    Senator Lankford. That is helpful. I am going to read a 
sentence about the modern benefits proposal from your 
recommendations, to both of you. I would be just interested to 
be able to get your feedback. It says, ``The private sector is 
increasingly providing flexible benefit packages that are 
attractive for both short-term and longer-term employees. When 
employees are allowed to select benefits that are most useful 
to them instead of a one-size-fits-all package, then government 
dollars are not wasted on unused benefits.''
    Help me understand how you see, what I think you described 
in your opening statement, Dr. Heck, a cafeteria plan type of 
approach there, what that would look like, how that would 
function day to day for a set of options for individuals.
    Dr. Heck. Right. Thank you, Senator. So again--and I think 
it is important to point out that this recommendation would be 
revenue neutral. So we are not asking for additional funding to 
grow a benefits package. What we are saying is that of the 
agency contribution that already goes to the employee's 
benefits, that that employee should have the opportunity to 
direct where that money goes to build a benefit package that 
suits them for where they are in their career, in their life, 
and for the needs that they have at home.
    And that kind of the one-size-fits-all, again, when we talk 
about trying to recruit and retain the best and the brightest 
coming out of the millennial and Gen Z'er generation, we, the 
Federal Government are being compared to what the private 
sector is offering. And when they see that they can get a day 
care benefit that might be more important to them than dental 
insurance, at one place, but they do not have that option for 
the job they are seeking in the Federal Government, they are 
going to say, ``That job doesn't work for me.''
    And so, again, it is coming up with whatever the menu would 
be of available benefits, and just giving the employee the 
opportunity to say, ``Here is your dollar amount. Pick and 
choose what works for you,'' and that can change from when you 
have a newborn to when you have a high schooler to when you are 
mid-career.''
    Senator Lankford. Right. But you did not make any set 
recommendations saying, ``Here is a list of 15 different 
benefits that are out there.'' You just said there needs to be 
a set that is created and then give people the option to 
choose.
    Dr. Heck. That is correct. We did not delve into what 
benefits specifically should be offered, and we think that if 
you are to do a review of what is commonly offered across 
Fortune 500 companies it would be very easy to see what is 
being used to attract new employees.
    Senator Lankford. One of the things that was placed into 
the Federal Government benefits package long ago was obviously 
retirement and structure of what it would be post-employment 
with the Federal Government. That was created as an incentive 
to be able to keep good talent, so they did not get stolen away 
by other private sector or other entities as such.
    Was there any discussion on the Commission to say if we 
give more flexibility to short-term issues we may lose the best 
talent later because they did not end up selecting the 
retirement benefit that would help retain them?
    Dr. Heck. Yes, another great question. As we talked to, 
again, the younger generation and those interested in Federal 
service, they are not looking to the 20-, 30-year career. They 
are looking for the ability to have a job for 2 to 3 years and 
then going off and doing something different, and then maybe 
coming back for other 5-year stint. It is all about flexibility 
and giving today's generation the opportunity to pursue 
whatever avenue of employment, profession, career that suits 
their needs at a given point in time.
    And this is an evolving process. So when you ask them, 
``Where do you see yourself in 20 or 30 years?'' they have not 
thought--it is not that they have neglected it, but that is not 
their horizon. No one enters Federal service now with the idea 
of retiring at 20 with a pension. And so we need to give them 
the benefit package that is the recruitment tool to get them in 
the door now. And then maybe they become enamored with Federal 
service, and say, ``Hey, there is a 20-year pension here and I 
will stay.'' But we need the hook to get them in the front 
door, and that is the flexible benefits package.
    Senator Lankford. OK. That is very helpful. So let me talk 
through something else that has been a nuisance to everybody. 
You mentioned the very long resume process, the keyword 
searches. As we know, for Senior Executive Service (SES) 
selection, many of the resumes that are done and the writing 
samples that are done are not even done by the candidate. They 
hire somebody to be able to do their writing sample and then to 
be able to turn it in.
    So there are lots of problems that are here not connected 
with things like LinkedIn and third-party sites on it. What are 
your fastest recommendations that you would say, if we can make 
a recommendation, or we can make a change in the hiring process 
of USAJobs, here are the three or four things that would be 
key? I already heard one of them--shorter resumes, not doing 
keyword, allowing third-party access into that, so that would 
obviously change, where CHCOs and HR professionals can go to 
get applications. It would not just be USAJobs. It could be 
other sites as well. What else would that be?
    Dr. Heck. I will offer one and then give Commissioner 
Skelly an opportunity, because she really was the point person 
for a lot of our public service work.
    But it is kind of the creation of a database or job board 
of all the resumes that are sent in. Right now, when you put in 
a resume, you are doing it for a specific position that is 
available. But hiring managers should have the ability, when 
they have an opening, to go in and query the data bank of 
resumes to say, hey, there is already somebody that has posted 
in here that I can reach out and grab, without necessarily 
having to go through the entire process of posting something on 
USAJobs.
    Ms. Skelly. Thank you, Chairman Heck. Chairman Lankford, I 
do not believe I have anything. Since you were so comprehensive 
in your setting up of the question I do not think I have 
anything substantive to add to this right now.
    Senator Lankford. I was just repeating back some of the 
things that you all have already said. So those were very 
interesting proposals. There has been a lot of conversation 
about some of those things, about how to be able to get to it. 
Obviously the status quo pulls pretty hard back to be able to 
say, well, we are making this work. Let us just keep it 
working. If we change it something else that is going to be 
even harder. Let us just keep doing what we are doing and make 
it work. But it has been a very significant challenge on the 
hiring side.
    Let me add insight, because obviously, as you mentioned, 
your final report was put out during the pandemic. There was 
not a major piece here about telework that was in it, but 
telework is the big conversation at this point. Through your 
conversations and your travels and listening sessions, did you 
pick up something from telework that would be helpful for us to 
be able to gain from this hearing?
    Dr. Heck. I would say that during our initial travels and 
public conversations we did not, because we had already 
finished that phase of our report process prior to the 
pandemic.
    However, I can say, from recent personal experience, 
specifically in the Reserve component, where, as you know, DOD 
has gone to very liberal telework policies, I have seen, 
anecdotally, an uptick in productivity of individuals that have 
actually been teleworking within my command.
    And so we think that there is an opportunity here for 
further study and--or I should not say ``we.'' This is Joe 
Heck's personal opinion, but it was not part of the 
Commission's report. I think there is an opportunity before us 
for further review and study on how telework can actually help 
make the Federal Government more efficient.
    Senator Lankford. Commissioner Skelly, do you want to add 
anything to that, that you have heard?
    Ms. Skelly. Thank you, Mr. Chairman. Yes, I would. 
Actually, I had the opportunity, on behalf of our Commission, 
to participate in a forum with the GovExec publication about 
working from home and its implications for public service.
    To add on to what Chairman Heck said, I believe that the 
current situation and what has been demonstrated in work from 
home is both an opportunity and a challenge, if not a threat to 
the Federal Government's future of public service hiring. It is 
an opportunity because, as Chairman Heck mentioned, the 
government has proven itself to be, when pushed, highly 
resourceful and adaptive, to the credit of all involved.
    The public is going to be watching and it is going to go 
down to the reputation of public service if some of the lessons 
have been learned, and there are a lot of things going on in 
the press right now about the considerations of some 
expediencies have been used, some risks taken, both procedural 
as well as security risk taken in extending all these work 
activities. But as we return to some kind of longer status quo, 
the question will be how does the government remain competitive 
with the private sector in how it adapts to a new normal over 
the long term, and then what does it do to the reputation if 
individual agencies retract more quickly and prove themselves 
perhaps inflexible, or they are perceived to be inflexible, 
thereby making private sector employment all the more 
attractive because of the delta that arises in the way they 
handle a situation?
    So it is an opportunity as well as a challenge.
    Senator Lankford. It is not new to us. As you know, there 
has been some long-term experiments on how we are going to 
handle telework. The Patent Office has been doing a pilot 
program on this for quite a while and it has proved to be 
exceptionally successful in that area. The workers' comp 
offices for Federal workers' comp experimented with telework 
for certain days of the week for quite a while and has had some 
success on that. But the difficulties have been very strong on 
oversight in that particular area.
    On the flip side of that, State Department struggled 
mightily with passports, and just determined they were just 
going to shut down all the passport offices and just not do 
passports for months, because they could not figure out how to 
be able to do a remote access for those kinds of documents that 
would be required. So there is going to need to be some follow-
up for State Department to try to figure out how do we do this 
if we happen to get to the situation again, or is there a way 
to be able to manage this, that we just do not shut down 
passport delivery and processing for months and months? So I 
appreciate that very much.
    One other statement, you talk about hiring professionals 
and setting competency standards. Some agencies have done that, 
but there is not a set of competency standards for HR 
professionals across the Federal Government. Is there anything 
prohibiting from OPM or the CHCO Council from establishing 
those competency standards now? Did you determine they need a 
change in statute, or do you think they could do that right 
now, if they chose to do that?
    Ms. Skelly. Thank you, Mr. Chairman. It is our 
recommendation, it is our understanding that that could be done 
now, through OPM. And our recommendation is that the Human 
Capital Officers Council is intimately involved in that, in the 
continual monitoring and evaluation and adaptation and 
refinement of that, as it goes on. Because they are best 
seated, situated to have knowledge of the state-of-the-art 
practices out in the private sector and ensure that those 
folks--we need that talent as much as we need cyber talent, 
frankly.
    Senator Lankford. Good. All right. I am going to close this 
hearing up in a moment, and I want to make sure that both of 
you are able to get on the record anything else that we did not 
talk about from your report that you want to make sure that we 
spend a little more time with. You have spent so much time and 
so many years pulling these things together, I want to make 
sure as much as possible of not only your commission report but 
certain areas of key passion actually get on the record.
    So, Chairman Heck, anything that you want to add into this?
    Dr. Heck. I would just also like to call to the 
Subcommittee's attention what we have called as the cross-
cutting recommendations, which really are designed to elevate 
all forms of service, and, in fact, goes back to one of the 
statements made by Senator Rosen about the cyber professional 
who does not necessarily meet the military standards, how do we 
get them to go into Federal service?
    One of the things that we talked about is a no-wrong-door 
mentality, that if you walk into a military recruiter officer 
and the recruiter feels, ``You are just not going to make it,'' 
based on whatever reason, do not say goodbye. Say, ``But have 
you ever thought about--,'' and ``Here are some national 
service opportunities.'' ``Here are some Federal service 
opportunities.'' When we talked to the recruiting command and 
to recruiters, they are not adverse. They said, ``Don't make us 
experts in that field, but if you give us a pamphlet or some 
direction that we are going to hand somebody, we are all in.'' 
Because they know that if they get, if they turn somebody away 
but get them into Federal service in some other way, shape, or 
form, we still become a stronger nation.
    And so there are several cross-cutting recommendations that 
will also help build the Federal workforce, and while we were a 
congressionally charter commission and focused on the Federal 
workforce primarily, there are a lot of our recommendations 
that can be extrapolated to local, State, and Tribal 
governments as well, and a series of best practices and 
conversations that we have had with the National Governors 
Association (NGA), in hoping that they can also glean something 
of worth from this report.
    Senator Lankford. OK. Commission Skelly.
    Ms. Skelly. Thank you, Mr. Chairman. The only thing I would 
add is to reflect back on our civic education and service 
learning recommendations. They were not included in our mandate 
and we made a well-thought-out decision, as a Commission, to 
include recommendations on those subjects, because they were 
commended to us by people we spoke to across the country, 
literally of all ages. Even school kids made mention of the 
lack of the focus in their studies on civic education and their 
government.
    So we took it upon ourselves to include that in our report, 
because it is the basis of everything that we have talked about 
and what Chairman Heck just spoke about, about no wrong door. 
We should be loathe that anybody that crosses that type of 
threshold, passes through that barrier, we should be loath to 
lose them, because we do create those people in our country 
really well, and we should capture their talent and their 
passion, because we can do so much good with it.
    And thank you very much, sir.
    Senator Lankford. No, that is great. Thank you to both of 
you. You have done a tremendous amount of work. I appreciate 
you appearing. I wish we could get a chance to sit across the 
desk from each other. There will be a time that hopefully we 
will have the opportunity to be able to do that in the days 
ahead, and be able to talk all of these areas through.
    Each of these pieces, we are going to try to go through and 
try to figure out which is the best route to be able to do 
this. A letter and a recommendation to the administration to be 
able to figure out how to be able to implement. They have the 
authority on that already. Working with the CHCO group to try 
to figure out what part they can take of this, and then what 
legislatively needs to be done as we have the opportunity to 
work through this.
    This Committee has a long history of bipartisan and 
nonpartisan work on the Federal workforce, to try to figure out 
what we can do to be able to support public servants that are 
in that space, and we want to be able to continue that. Many of 
these recommendations should not be controversial. And they 
good common sense, to be able to help us improve the process of 
hiring and in oversight in the Federal workforce, to make it 
better, to have younger folks be able to enter into the 
process, and see what we can do to be able to establish a long-
term set of relationships as we will continue to need great 
folks serving our country.
    So to both of you, in your long terms of public service, 
thanks for doing that, and for your continued engagement in 
this.
    I am going to wrap this hearing up. The hearing testimony 
will be open for 15 days, until the July 8. If folks want to be 
able to add additional comments or add things into the record 
they are welcome to be able to do that, or any additional 
questions to either of you. They can submit those up until July 
the 8 as well.
    So thanks again for your service, and this concludes this 
Subcommittee hearing.
    Dr. Heck. Thank you.
    Ms. Skelly. Thank you.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
